No. 20-1471

In the Supreme Court of the United States
JONATHAN LOZADA, PETITIONER
v.
DUDLEY TEEL
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with copies
of the foregoing BRIEF IN OPPOSITION, via e-mail, this 23rd day of August 2021.
All parties had previously consented to electronic service consistent with this Court’s
order of April 15, 2021.
[See Attached Service List]
I declare under penalty of perjury the foregoing is true and correct. Executed on
August 23, 2021.

/s Andrew Tutt
Andrew T. Tutt
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
andrew.tutt@arnoldporter.com
August 23, 2021

20-1471
JONATHAN LOZADA
DUDLEY TEEL
SUMMER MARIE BARRANCO
PURDY, JOLLY, GIUFFREDA, BARRANCO & JISA, P.A.
2455 EAST SUNRISE BOULEVARD
SUITE 1216
FORT LAUDERDALE, FL 33304
954-462-3200
SUMMER@PURDYLAW.COM

2

